<html>
<title> - MID-LEVEL ETHANOL BLENDS: CONSUMER AND TECHNICAL RESEARCH NEEDS</title>
<body><pre>[House Hearing, 113 Congress]
[From the U.S. Government Publishing Office]






                       MID-LEVEL ETHANOL BLENDS:
                         CONSUMER AND TECHNICAL
                             RESEARCH NEEDS

=======================================================================

                                HEARING

                               BEFORE THE

                      SUBCOMMITTEE ON ENVIRONMENT

              COMMITTEE ON SCIENCE, SPACE, AND TECHNOLOGY
                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED THIRTEENTH CONGRESS

                             FIRST SESSION

                               __________

                       TUESDAY, FEBRUARY 26, 2013

                               __________

                            Serial No. 113-7

                               __________

 Printed for the use of the Committee on Science, Space, and Technology





[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]




       Available via the World Wide Web: http://science.house.gov

                                _____


                  U.S. GOVERNMENT PRINTING OFFICE

79-925 PDF                WASHINGTON : 2013
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001






              COMMITTEE ON SCIENCE, SPACE, AND TECHNOLOGY

                   HON. LAMAR S. SMITH, Texas, Chair
DANA ROHRABACHER, California         EDDIE BERNICE JOHNSON, Texas
RALPH M. HALL, Texas                 ZOE LOFGREN, California
F. JAMES SENSENBRENNER, JR.,         DANIEL LIPINSKI, Illinois
    Wisconsin                        DONNA F. EDWARDS, Maryland
FRANK D. LUCAS, Oklahoma             FREDERICA S. WILSON, Florida
RANDY NEUGEBAUER, Texas              SUZANNE BONAMICI, Oregon
MICHAEL T. McCAUL, Texas             ERIC SWALWELL, California
PAUL C. BROUN, Georgia               DAN MAFFEI, New York
STEVEN M. PALAZZO, Mississippi       ALAN GRAYSON, Florida
MO BROOKS, Alabama                   JOSEPH KENNEDY III, Massachusetts
RANDY HULTGREN, Illinois             SCOTT PETERS, California
LARRY BUCSHON, Indiana               DEREK KILMER, Washington
STEVE STOCKMAN, Texas                AMI BERA, California
BILL POSEY, Florida                  ELIZABETH ESTY, Connecticut
CYNTHIA LUMMIS, Wyoming              MARC VEASEY, Texas
DAVID SCHWEIKERT, Arizona            JULIA BROWNLEY, California
THOMAS MASSIE, Kentucky              MARK TAKANO, California
KEVIN CRAMER, North Dakota           VACANCY
JIM BRIDENSTINE, Oklahoma
RANDY WEBER, Texas
CHRIS STEWART, Utah
VACANCY
                                 ------                                

                      Subcommittee on Environment

                              HON. , Chair
CHRIS STEWART, Utah                  SUZANNE BONAMICI, Oregon
F. JAMES SENSENBRENNER, JR.,         JULIA BROWNLEY, California
    Wisconsin                        DONNA F. EDWARDS, Maryland
DANA ROHRABACHER, California         MARC VEASEY, Texas
RANDY NEUGEBAUER, Texas              MARK TAKANO, California
PAUL C. BROUN, Georgia               ALAN GRAYSON, Florida
RANDY WEBER, Texas                   EDDIE BERNICE JOHNSON, Texas
    
LAMAR S. SMITH, Texas

















                            C O N T E N T S

                       Tuesday, February 26, 2013

                                                                   Page
Witness List.....................................................     2

Hearing Charter..................................................     3

                           Opening Statements

Statement by Representative Chris Stewart, Chairman, Subcommittee 
  on Environment, Committee on Science, Space, and Technology, 
  U.S. House of Representatives..................................    10
    Written Statement............................................    12

Statement by Representative Suzanne Bonamici, Ranking Minority 
  Member, Subcommittee on Environment, Committee on Science, 
  Space, and Technology, U.S. House of Representatives...........    13
    Written Statement............................................    14

                               Witnesses:

Mr. Robert L. Darbelnet, President and CEO, American Automobile 
  Association
    Oral Statement...............................................    16
    Written Statement............................................    18

Hon. Wayne Allard, Vice President, Government Relations, American 
  Motorcyclist Association
    Oral Statement...............................................    23
    Written Statement............................................    25

Mr. Mike Leister, Member, Board of Directors, Coordinating 
  Research Council
    Oral Statement...............................................    31
    Written Statement............................................    33

Discussion.......................................................    41

             Appendix I: Answers to Post-Hearing Questions

Mr. Robert L. Darbelnet, President and CEO, American Automobile 
  Association....................................................    56

Hon. Wayne Allard, Vice President, Government Relations, American 
  Motorcyclist Association.......................................    58

Mr. Mike Leister, Member, Board of Directors, Coordinating 
  Research Council...............................................    61


            Appendix II: Additional Material for the Record

CRC Research on Mid-Level Ethanol Blends.........................    66

CRC Project CM-136-09-1B.........................................    83

Durability of Fuel Pumps and Fuel Level Senders in Neat and 
  Aggressive E15, CRC Report No. 664.............................    91

Letter to Subcommittee Chairman Chris Stewart from Matt Gruhn, 
  MRAA President, Marine Retailers Association of the Americas...    96

Letter to Hon. Lisa Jackson, Administrator, Environmental 
  Protection Agency, from Hon. Wayne Allard, Vice President, 
  Government Relations, American Motorcyclist Association........    98

Letter to Subcommittee Chairman Chris Stewart from Hon. Wayne 
  Allard, Vice President, Government Relations, American 
  Motorcyclist Association.......................................   101

Letter to Former Subcommittee Chairman Andy Harris from William 
  Woebkenberg, Mercedes-Benz Research and Development, North 
  America........................................................   104

Memo from Coordinating Research Council, Inc.(CRC)...............   106

Letter to Subcommittee on Environment from Renewable Fuels 
  Association....................................................   108

``Getting It Right: Accurate Testing and Assessments Critical to 
  Deploying the Next Generation of Auto Fuels,'' by Patrick B. 
  Davis..........................................................   111

Letter to Subcommittee on Environment from Algae Biomass 
  Organization...................................................   113

Letter to Subcommittee on Environment from Growth Energy.........   116

 
                       MID-LEVEL ETHANOL BLENDS:
                         CONSUMER AND TECHNICAL
                             RESEARCH NEEDS

                              ----------                              


                       TUESDAY, FEBRUARY 26, 2013

                  House of Representatives,
                                Subcommittee on Environment
               Committee on Science, Space, and Technology,
                                                    Washington, DC.

    The Subcommittee met, pursuant to call, at 2:01 p.m., in 
Room 2318 of the Rayburn House Office Building, Hon. Chris 
Stewart [Chairman of the Subcommittee] presiding.



[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    Chairman Stewart. The Subcommittee on Environment will come 
to order. Good afternoon, everyone. Welcome to today's hearing 
entitled, ``Mid-Level Ethanol Blends: Consumer and Technical 
Research Needs.''
    Before we begin, I would like to take this opportunity to 
thank my esteemed colleague, Dr. Andy Harris, for his service 
to the Committee and to his leadership as Chairman of the 
Environment Subcommittee. We congratulate him on his 
appointment to the House Appropriations Committee but regret 
the loss of an active Member of this Committee. We thank him 
for his leadership and wish him the very best of luck in his 
new committee assignment.
    I am Chris Stewart. I am the Vice Chairman of this 
Subcommittee. I have been asked to pinch hit for Dr. Harris in 
his absence and hopefully we can stumble through this without 
too many incidents. I appreciate the presence of the witnesses 
with us today as well as other Members of the Subcommittee.
    In front of you are packets containing the written 
testimony, the biographies, and the truth in testimony 
disclosures for today's witnesses.
    I know recognize myself for five minutes for an opening 
statement.
    Welcome to this afternoon's hearing of the Environment 
Subcommittee entitled, ``Mid-Level Ethanol Blends: Consumer and 
Technical Research Needs.''
    This legislation hearing builds upon work of this Committee 
pursued last Congress involving technical aspects of the 
Environmental Protection Agency's approval of mid-level ethanol 
blends for use in certain vehicles. Relying on a single set of 
narrow tests, EPA approved fuel with up to 15 percent ethanol, 
known as E15, for use in 2001, model year and newer passenger 
vehicles. Concurrently, and for the first time in the history 
of the Clean Air Act, EPA conducted a bifurcated fuel system, 
prohibiting E15 use in all other engines and vehicles.
    Unfortunately, the more E15 is studied, the more concerns 
are identified. In addition to potential widespread impacts on 
vehicle engines, EPA has led a haphazard transition to E15 
usage, marked by regulatory confusion, bungled implementation, 
and a lack of consumer education. Today's hearing is not a 
forum to discuss whether corn ethanol is good or bad, but 
rather it is designed to answer questions like: What have we 
learned about the effects of E15 since 2010? What types of 
research would be helpful before there is more widespread use 
throughout the United States? And finally, what types of 
research and development should be required ahead of the 
introduction of new fuels in the future?
    Toward answering these questions, our witnesses will be 
commenting on discussion draft legislation in your packets. 
This bill would require that EPA contract with the National 
Academy of Sciences to assess the state of the science 
regarding E15, including research needs, gaps in understanding, 
recent testing, and consumer education efforts. This draft is 
substantially similar to H.R. 3199, bipartisan legislation co-
sponsored by Congressman Sensenbrenner and passed 
overwhelmingly by the full Science, Space, and Technology 
Committee last year.
    That legislation was also endorsed by a diverse coalition 
of groups concerned about EPA's E15 science, including everyone 
from the Friends of the Earth and the National Turkey 
Federation to the American Petroleum Institute and Alliance of 
Automobile Manufacturers. For example, the now-President of the 
Environmental Working Group testified to this Subcommittee last 
Congress that, ``Our comprehensive review of the available 
scientific data indicates that E15 and higher ethanol blends 
could have significant adverse impacts on human and 
environmental health.''
    This hearing is focused on technical and consumer concerns 
about the potential engine damage, warranty issues, and 
misfueling associated with EPA's approval of a bifurcated 
fueling system. The Clean Air Act does not allow a waiver for a 
new fuel if it would result in the failure of emission 
standards in cars manufactured after 1974. Recent research has 
found major problems resulting from the use of mid-level 
ethanol blends. This research has identified negative impacts 
to the engine durability, on-board diagnostics, fuel pumps, as 
well as non-road marine, outdoor power equipment, and 
snowmobile engines. Additional research has shown that 
consumers are completely unaware of this dramatic change, a 50 
percent increase in the amount of ethanol per gallon, in the 
fuel they are putting in their vehicles and engines.
    Earlier this month, the National Marine Manufacturers 
Association conducted a survey that found of the 17 stations 
currently registered to sell E15 in a handful of States, six of 
those stations, fully 35 percent, had failed to label the pumps 
according to EPA's requirements. Confusion over misfueling has 
been magnified by the agency's handling of blender pumps and 
non-approved vehicles. At one point last year, EPA even 
proposed a completely impractical and unenforceable mandate 
that all customers would have to buy at least four gallons from 
any E15 blender pump. This is not promising for the widespread 
adoption of this fuel, especially as the vast majority of 
vehicles and engines in America are either not approved for the 
use of E15 or may have their warranties voided by its use.
    While EPA's Assistant Administrator Gina McCarthy has 
repeatedly stated that the agency is not currently requiring 
the use of E15, the agency has aggressively supported the 
Renewable Fuel Standard, the underlying mandate that will 
undeniably, at some point in the future, have to force fuel 
ethanol blends to exceed 10 percent. And to be clear, RFS 
further guarantees that E15 is just the tip of the iceberg. RFS 
mandates 16 billion gallons of renewable fuel be blended for 
the sale in 2013. Over the next 10 years, this requirement will 
grow to 36 billion gallons.
    This policy is looking more and more like a monument of the 
folly of central energy planning and has entailed negative 
environmental outcomes, rising food costs here in the United 
States and in third world countries, and even outright fraud 
involving biofuel credits. This absurdity was demonstrated late 
last week when Ms. McCarthy, reportedly expected to be 
nominated for EPA Administrator, expressed excitement at her 
``personal milestone,'' that the first credit for cellulosic 
ethanol had just been issued. What she failed to mention is 
that her agency had mandated 8.65 million gallons of this 
phantom fuel be paid for by consumers in 2012, even though 
virtually none existed.
    To reiterate, this hearing will not examine the RFS, but 
rather focus on its downstream impacts related to the technical 
and consumer research needed on the effects of E15 on all 
engines, as well as explore a potential path forward that is 
based on science and expert testing, not on politics. As our 
witnesses today will testify, there is increasing evidence that 
American consumers may have to pay the price for EPA's cart-
before-the-horse approach to E15 science.
    [The prepared statement of Mr. Stewart follows:]

       Prepared Statement of Subcommittee Chairman Chris Stewart

    Welcome to this afternoon's hearing of the Environment Subcommittee 
entitled ``Mid-Level Ethanol Blends: Consumer and Technical Research 
Needs.''
    This legislative hearing builds upon work this Committee pursued 
last Congress involving technical aspects of the Environmental 
Protection Agency's approval of mid-level ethanol blends for use in 
certain vehicles. Relying on a single set of narrow tests, EPA approved 
fuel with up to 15 percent ethanol--known as E15--for use in 2001 
model-year and newer passenger vehicles. Concurrently, and for the 
first time in the history of the Clean Air Act, EPA created a 
birfurcated fuel system, prohibiting E15 use in all other engines and 
vehicles.
    Unfortunately, the more E15 is studied, the more concerns are 
identified. In addition to potential widespread impacts on vehicle 
engines, EPA has led a haphazard transition to E15 usage, marked by 
regulatory confusion, bungled implementation, and a lack of consumer 
education. Today's hearing is not a forum to discuss whether corn 
ethanol is good or bad; rather, it is designed to answer questions 
like: What have we learned about the effects of E15 since 2010? What 
types of research would be helpful before there is more widespread use 
throughout the United States? Finally, what types of research and 
development should be required ahead of the introduction of new fuels 
in the future?
    Toward answering those questions, our witnesses will be commenting 
on discussion draft legislation in your packets. This bill would 
require that EPA contract with the National Academy of Sciences to 
assess the state of the science regarding E15, including research 
needs, gaps in understanding, recent testing, and consumer education 
efforts. This draft is substantially similar to H.R. 3199, bipartisan 
legislation sponsored by Congressman Sensenbrenner and passed 
overwhelmingly by the full Science, Space, and Technology Committee 
last year.
    That legislation was also endorsed by a diverse coalition of groups 
concerned about EPA's E15 science, including everyone from Friends of 
the Earth and the National Turkey Federation to the American Petroleum 
Institute and the Alliance of Automobile Manufacturers. For example, 
the now-President of the Environmental Working Group testified to this 
Subcomiittee last Congress that ``Our comprehensive review of the 
available scientific data indicates that E15 and higher ethanol blends 
could have significant adverse impacts on human and environmental 
health.''
    This hearing is focused on technical and consumer concerns about 
the potential engine damage, warranty issues, and misfueling associated 
with EPA's approval of a bifurcated dueling system. The Clean Air Act 
does not allow a waiver for a new fuel if it would result in the 
failure of emission standards in cars manufactured after 1974. Recent 
research has found major problems resulting from the use of midlevel 
ethanol blends. This reserach has identified negative impacts to engine 
durability, on-board diagnostics, fuel pumps, as well as nonroad 
marine, outdoor power equipment, and snowmobile engines. Additional 
research has shown that consumers are completely unaware of this 
dramatic change--a 50 percent increase in the amount of ethanol per 
gallon--in the fuel they are putting in their vehicles and engines.
    Earlier this month, the National Marine Manufacturers Association 
conducted a survey that found that, of the 17 stations currently 
registered to sell E15 in a handful of States, six of those stations--
35 percent--had failed to label the pumps according to EPA's 
requirements. Confusion over misfueling has been magnified by the 
Agency's handling of blender pumps and nonapproved vehicles; at one 
point last year, EPA even proposed a completely impractical and 
unenforceable mandate that all customers would have to buy at least 
four gallons from any E15 blender pump. This is not promising for the 
widespred adoption of this fuel, especially as the vast majority of 
vehicles and engines in America are either not approved for the use of 
E15 or may have their warranties voided by its use.
    While EPA's Assistant Administrator Gina McCarthy has repeatedly 
stated that the Agency is not currently requiring the use of E15, the 
Agency aggressively supports the Renewable Fuel Standard--the 
underlying mandate that will, undeniably, at some point in the future 
have to force fuel ethanol blends to exceed 10 percent. And to be 
clear--the RFS further guarantees that E15 is just the tip of the 
iceberg. The RFS mandates 16 billion gallons of renewable fuel be 
blended for sale in 2013. Over the next 10 years, this requirment will 
grow to 36 billion gallons.
    This policy is looking more and more like a monument to the folly 
of central energy planning, and has entailed negative environmental 
outcomes, rising food costs here in the United States and in third-
world countries, and even outright fraud involving biofuel credits. 
This absurdity was demonstrated late last week, when Ms McCarthy--
reportedly expected to be nominated for EPA Administrator--expressed 
excitement at her ``personal milestone'' that the first credit for 
cellulosic ethanol had just been issued. What she failed to mention is 
that her Agency had mandated 8.65 million gallons of this phantom fuel 
be paid for by consumers in 2012, even though virtually none existed.
    To reiterate, this hearing will not examine the RFS but rather 
focus on its downstream impacts related to the technical and consumer 
research needed on the effects of E15 on all engines, as well as 
explore a potential path forward that is based on science and expert 
testing, not politics. As our witnesses today will testify, there is 
increasing evidence that American consumers may have to pay the price 
for EPS's cart-before-the-horse approach to E15 science.

    Chairman Stewart. I would now like to recognize the Ranking 
Member, the gentlewoman from Oregon, Ms. Bonamici, for an 
opening statement.
    Ms. Bonamici. Thank you very much, Chairman Stewart.
    Renewable fuel from biomass, specifically corn-based 
ethanol, is a complex issue, and as this hearing demonstrates, 
the ethanol content in our Nation's fuel supply has been the 
subject of much debate. In this Committee, we often cover 
policy areas about which there is disagreement in basic 
ideology and world view.
    But when we are faced with issues on which there is 
agreement, we should recognize that and work toward consensus 
solutions.
    For example, the Renewable Fuels Standard was first 
included in an energy bill that passed the House and the Senate 
with bipartisan support. That is a statement we don't say 
frequently enough. One thing that many of us do say frequently 
is that we need to put this Nation on a path toward energy 
independence. Our reliance on foreign oil causes concerns in 
every sector, businesses and consumers worry about constantly 
fluctuating prices at the pump, our generals see a strategic 
disadvantage to relying on resources provided by countries with 
which we have experienced significant conflict, and many of our 
constituents rightly worry that continuing our current use of 
fossil fuels will harm our fragile environment.
    The Renewable Fuel Standard represents a bipartisan 
acknowledgement of the role that alternative fuels play in 
reducing our dependence on foreign oil. From my time in the 
Oregon legislature, I know well the concerns that some have 
about blend levels in gasoline, and I know that various States 
have made exceptions to accommodate these concerns. It makes 
sense to fully understand the impacts of our renewable policies 
before requiring consumers to comply.
    What does not make sense, however, is refusing to address 
the problem altogether. The blend wall should not be a reason 
to give up on renewable fuels. It should be a reason to promote 
technology that will meet the growing supply of renewables. 
Advanced ethanol, cellulosic biomass, and developments in these 
fields are only going to increase the supply of blended fuels 
in the market, and these advancements will help us bring--come 
further toward energy security.
    This hearing is supposed to examine, among other things, 
scientific, technical, and consumer impacts of EPA's decision 
to allow introduction by waiver of E15 in the market, and that 
is to allow, not to require. And we will also take comments on 
a draft bill that Mr. Sensenbrenner is circulating that would 
prevent the EPA from complying with its Congressionally 
mandated responsibilities under the Clean Air Act until 
additional research is performed on E15.
    The Department of Energy conducted much of the science that 
the EPA used in making its waiver decision. Although I agree 
that the EPA should not base decisions on incomplete 
information, neither should this Committee. I am concerned that 
in the hearing charter and in the witness testimony, the main 
literature that is being used to refute the EPA's science on 
E15 is being provided by a group that is largely financed by 
the American Petroleum Institute and several automobile 
manufacturers
    In a Committee where science is paramount, I find it 
perplexing that the scientific studies we are discussing were 
largely funded by the oil industry, which has an obvious 
financial stake in the outcome, and this context is also worth 
pointing out at the outset that following the release of the 
study from the Coordinating Research Council, the Department of 
Energy did release a response questioning the methodology of 
the research.
    Clean and sustainable renewable fuels are already part of 
our economy. Investing in clean and renewable energy has and 
will continue to create jobs, reduce our impact on climate 
change, reduce our reliance on foreign fossil fuels, and 
strengthen our national security. We should work toward 
realizing a future of producing home-grown renewable fuels, and 
to meet that challenge, it is this Committee's responsibility 
to focus on the science and technology that will help get our 
country on the road to a sustainable energy future.
    With that, I look forward to all of the witnesses' 
testimony and to what I hope will be a productive discussion 
about the scientific and technological implications of 
alternative fuels.
    Thank you, Mr. Chairman, and I yield back.
    [The prepared statement of Ms. Bonamici follows:]

   Prepared Statement of Subcommittee Ranking Member Suzanne Bonamici

    Thank you, Chairman Stewart. Renewable fuel from biomass, 
specifically corn-based ethanol, is a complex issue. And, as this 
hearing demonstrates, the ethanol content in our Nation's fuel supply 
has been the subject of much debate.
    In this Committee, we often cover policy areas about which there is 
disagreement in basic ideology and world view. But when we are faced 
with issues on which there is agreement, we should recognize that and 
work toward consensus solutions. For example, the Renewable Fuels 
Standard was first included in an energy bill that passed the House and 
Senate with bipartisan support. That is a statement we don't say 
frequently enough.
    One thing that many of us do say frequently is that we need to put 
this Nation on a path toward energy independence. Our reliance on 
foreign oil causes concern in every sector. Businesses and consumers 
worry about constantly fluctuating prices at the pump. Our Generals see 
a strategic disadvantage to relying on resources provided by countries 
with which we have experienced significant conflict. And many of our 
constituents rightly worry that continuing our current use of fossil 
fuels will harm our fragile environment.
    The Renewable Fuels Standard (RFS) represents a bipartisan 
acknowledgment of the role that alternative fuels play in reducing our 
dependence on foreign oil. From my time in the Oregon legislature, I 
know the concerns that some have about blend levels in gasoline, and I 
know that various States have made exceptions to accommodate these 
concerns. It makes sense to fully understand the impacts of our 
renewable policies before requiring consumers to comply. What does not 
make sense, however, is refusing to address the problem altogether. The 
``blend wall' should not be a reason to give up on renewable fuels; it 
should be a reason to promote technology that will meeet the growing 
supply of renewables. Advanced ethanol, cellulosic biomass, 
developments in these fuels are only going to increase the supply of 
blended fuels on the market. Those advancements will help bring us 
further toward energy security.
    This hearing is supposed to examine--among other things--
scientific, technical, and consumer impacts of EPA's decision to allow 
introduction of E15 in the market. And we will also take comments on a 
draft bill that Mr. Sensenbrenner is circulating that would prevent the 
EPA from complying with its Congressionally mandated responsibilities 
under the Clean Air Act until additional research is performed on E15.
    The Department of Energy conducted much of the science that the EPA 
used in making its waiver decision. Although I agree that the EPA 
should not base decisions on incomplete information, neither should 
this Committee. I am concerned that in the Hearing Charter and in the 
witness testimony, the main literature that is being used to refute the 
EPA's science on E15 is being provided by a group that is largely 
financed by the American Petroleum Institute and several automobile 
manufacturers. In a Committee where science is paramount, I find it 
perplexing that the scientific studies we are discussing were largely 
funded by the oil industry, which has an obvious financial stake in the 
outcome of this debate.
    Also, because the Department of Energy conducted the research on 
which the EPA based its decision, it is important to note for the 
record that the Majority invited neither the Department of Energy nor 
the Environmental Protection Agency to discuss the science and 
extensive testing on which EPS based its decision.
    Clean and sustainable renewable fuels are already a part of our 
economy. Investing in clean and renewable energy has and will continue 
to create jobs, reduce our impact on climate change, reduce our 
reliance on foreign fossil fuels, and strengthen our national security. 
We should work toward realizing a future of producing home-grown 
renewable fuels. To meet that challenge, it is this Committee's 
responsibility to focus on the science and technology that will help 
get our country on the road to a sustainable energy future.
    With that, I look forward to all of the witnesses' testimony and to 
what I hope will be a productive discussion about the scientific and 
technological implications of alternative fuels.

    Chairman Stewart. Thank you, Ms. Bonamici.
    If there are other Members who wish to submit additional 
opening statements, your statements will be added to the record 
at this point.
    At this time I would like to introduce the witnesses.
    Our first witness is Mr. Robert L. Darbelnet, the President 
and CEO of American Automobile Association, known to most of us 
as AAA. Mr. Darbelnet has become AAA President and CEO in 
November 1994, after serving 11 years as CEO of the Canadian 
Automobile Association in Quebec. He currently serves as 
Chairman of the Global Mobility Alliance and Trustee of the AAA 
Foundation for Traffic Safety.
    Our next witness is the Honorable Wayne Allard, Vice 
President of Government Relations for the American Motorcyclist 
Association, or AMA. He previously served from 1997 to 2009 as 
a U.S. Senator for the State of Colorado. Senator Allard served 
as the Ranking Member of the Interior Subcommittee of the 
Senate Appropriations Committee. Before that, Senator Allard 
was a Member of the U.S. House of Representatives from 1991 to 
1997.
    And the final witness today is Mr. Mike Leister, a member 
of the Board of the Directors of the Coordinating Research 
Council. He chairs the American Petroleum Institute Fuels 
Subcommittee and is a member of the API Economics Work Group 
and belongs to the American Fuels and Petrochemical 
Manufacturers Fuels Advisory Subcommittee. Mr. Leister has a 
Master's of Science in chemical engineering and a Master's of 
Business Administration.
    As our witnesses should know, spoken testimony is limited 
to five minutes each, after which the Members of the Committee 
will have five minutes each to ask questions.
    I would now like to recognize Mr. Darbelnet for five 
minutes to present his testimony.

             STATEMENT OF MR. ROBERT L. DARBELNET,

                       PRESIDENT AND CEO,

                AMERICAN AUTOMOBILE ASSOCIATION

    Mr. Darbelnet. Thank you very much, Mr. Chairman. It is a 
pleasure to be here on behalf of AAA to share our views on this 
issue. I realize that you and your colleagues often deal with 
extremely complex questions, but the subject matter before us 
today is really quite simple, and that is that allowing the 
sale of E15 at this point in time is premature and 
irresponsible.
    In our view, there are three prerequisites for the 
introduction of a new fuel. The first one is adequate testing 
to ensure that the product that is being brought to market is 
safe. In this instance, that has not occurred. Granted, the EPA 
has conducted extensive testing, but the focus of that testing 
has been on the impact of E15 on emission controls, not on the 
broader effect of the product on the engine itself.
    Industry testing reveals true and genuine concerns, and you 
will hear more about that later this afternoon, but clearly 
from our research or our review of the research, I should say, 
premature engine wear, potential fuel pump failures, and a 
series of other less-significant consequences can occur if this 
fuel is used in vehicles that were manufactured more recently 
than last year. Even the Renewable Fuel Association advises 
retailers to beware of the dangers and the damage that can 
result from putting E15 in underground storage systems. They 
speak of possible leaks and fires. Clearly there is something 
here.
    The second requirement, in our view, for introducing a new 
fuel to market is coordination between regulators, fuel 
retailers, and auto manufacturers. Now, the record is clear in 
that that has not occurred. A number of the retailers in this 
country are opposed to the sale of E15 and at the present time 
do not intend to bring it to market. Virtually every OEM or 
auto manufacturer in this country has indicated that using E15 
in vehicles that were manufactured more recently than last 
year, with the exception of Porsches, will tell you that you 
could use it in a vehicle that is older than that, virtually 
all of the OEMs have said do not put this fuel in your tank 
unless you are accepting of the fact that it will void your 
warranty.
    And the third requirement for introducing a new product is 
outreach to consumers to mitigate the risk of misfueling, and 
that hasn't occurred either. Again, the record is clear. We 
conducted research recently that shows that 95 percent, 95 
percent of the motoring public in this country does not know 
what E15 is, let alone whether they should be putting it in the 
tank of their vehicle.
    And to further complicate matters, the EPA ceded to 
pressures to tone down the message on the warning label which, 
incidentally, is rather small and generally lost in all of the 
advertising which is on today's fuel pumps, but they agreed to 
tone down the message on that label from what was initially 
contemplated and would have started with the word ``warning'' 
to something less significant, in other words, ``attention.''
    Now, I want to make clear the fact that AAA is not opposed 
to ethanol for automobiles. E10 is compatible with almost every 
vehicle on the road today. Automobiles, I should say, because 
you will hear from my colleagues that the same is not true for 
other types of vehicles. But for automobiles, E10 is safe. Our 
issue is not with ethanol. We see the benefit of reduced 
dependency on fossil fuel, we see the benefit of bringing to 
market alternative options for consumers.
    However, as I said at the outset, the sale of E15 at this 
point in time is irresponsible, and it should cease until 
adequate testing allows regulators, retailers, and auto 
manufacturers to reconcile their viewpoints to agree on which 
vehicles can safely consume E15, and to make sure that the 
consumer is adequately informed of the risks that follow the 
use of E15 in today's automobiles.
    Thank you very much.
    [The prepared statement of Mr. Darbelnet follows:]



[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    Chairman Stewart. Thank you, sir.
    I now recognize Senator Allard for five minutes for his 
testimony.

                STATEMENT OF HON. WAYNE ALLARD,

             VICE PRESIDENT, GOVERNMENT RELATIONS,

               AMERICAN MOTORCYCLIST ASSOCIATION

    Mr. Allard. Thank you, Mr. Chairman, and I want to 
congratulate you on Chairing your first Committee.
    Chairman Stewart. Thank you. It is really quite exciting.
    Mr. Allard. Acting Chairman Chris Stewart and Ranking 
Member Suzanne Bonamici and Members of the Subcommittee, thank 
you for the opportunity to provide comment on ``Mid-Level 
Ethanol Blends: Consumer and Technical Research Needs.''
    I was in public office for 26 years, but I still shake my 
head over the ability of the Federal Government to reach, or 
maybe I should say overreach, into the lives of the American 
people and the power wielded by bureaucrats to do so.
    One case in point is E15, a gasoline formulation that 
contains up to 15 percent ethanol by volume, which could damage 
motorcycle and all-terrain vehicle engines.
    The American Motorcyclist Association believes extensive, 
independent testing needs to be done before E15 becomes more 
widely available. The key for the AMA and our members is that 
E15 must be proven safe for motorcycle and ATV engines. To the 
best of our knowledge, E15 is not approved for use in any 
original-equipment motorcycles or ATVs, and in fact, its use 
can void many manufacturer's warranties.
    As of today, the U.S. Environmental Protection Agency has 
only approved the use of E15 in model year 2001, and newer 
cars, light-duty trucks, and medium-duty passenger vehicles. 
This list does not include motorcycles or ATVs.
    How is the Federal Government going to prevent 
motorcyclists from inadvertently putting E15 in our gas tanks 
or gas cans when getting gas at a blender pump with a single 
hose?
    Here is what the EPA--here is where the EPA overreached. 
Initially, the EPA decided that you must buy at least four 
gallons of gas from that blender pump. Not one gallon, not two 
gallons, not three gallons. Yes, the government mandated you 
buy at least four gallons to dilute the residual E15 in the 
hose.
    The EPA revealed the four-gallon minimum mandate to the AMA 
in a letter last August responding to AMA concerns that E15 
could be put in motorcycle and ATV gas tanks inadvertently when 
consumers use blender pumps. Unlike an automobile or SUV that 
has a large fuel tank, the residual fuel left in a fueling hose 
could be detrimental to the performance of motorcycle or ATV 
engines due to the small size of their fuel tanks and the 
higher concentration of ethanol that would, therefore, be 
present in the fuel.
    In addition, the use of E15 will lower fuel efficiency and 
possibly cause premature engine failure. In off-road engines, 
the effect can even be dangerous for users.
    Another problem with that new EPA policy is that not all 
motorcycle and ATV gas tanks hold four gallons or more gallons. 
Not only did we find it unacceptable for the EPA to mandate 
that everyone, including our members, buy minimum amounts of 
gas, but that the EPA answer simply would not work because of 
the sizes of many motorcycle and ATV gas tanks and the fact 
that off-highway riders take containers of gas with them on 
their trips. Most times these containers are much smaller than 
four gallons.
    We stress that the EPA needed to come up with a better 
solution, so on February 7, in response to concerns expressed 
by the AMA and power equipment makers, the EPA issued new 
guidelines to help ensure that motorcyclists and others don't 
inadvertently use E15 fuel.
    Under the new option, retailers who use a blender pump to 
see E15 and E10 fuel through the same hose must also have a 
separate E10/E0 fuel pump. Those retailers would be required to 
have a label on the blender pump that reads passenger vehicles 
only. Use in other vehicles, engines, and equipment may violate 
federal law.
    Retailers would also be required to have signs indicating 
the location of the dedicated E10 or lower fuel pump. There 
would be no minimum fuel purchase requirement at that pump.
    Now, we can only imagine how many motorists and 
motorcyclists will be lining up at that single pump to get E10 
or lower fuel. Retailers who want to sell E15 also have the 
option of having a dedicated E15 pump or hose or a pump that 
dispenses E15 and higher ethanol blends through a single hose. 
If a blender pump dispenses multiple fuels that include E15 and 
higher ethanol blends, the EPA may require a minimum purchase 
requirement.
    The AMA has repeatedly expressed concerns to government 
officials and federal lawmakers about possible damage to 
motorcycle and ATV engines caused by the inadvertent use of E15 
when the new fuel becomes widely available. The AMA has also 
asked that motorcycles and ATVs be part of any scientific study 
into the effects of E15 to ensure that the new fuel blend would 
not damage those engines.
    It is my sincere hope that this Subcommittee continues to 
be proactive on this important issue affecting motorcyclists 
and ATV riders. The AMA and its members stand ready to serve as 
a resource for you and your staff as you further deliberate 
making our Nation's fuel supply safer for all users.
    Again, I wish to thank the Chairman, the Ranking Member, 
and the Subcommittee for holding this legislative hearing on 
E15.
    [The prepared statement of Mr. Allard follows:]



[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    Chairman Stewart. Thank you, Senator. On a personal note, I 
will note that your home State of Colorado is almost as 
beautiful as my home State of Utah, and I look forward to 
joining you on your next motorcycle ride through the land.
    I now recognize Mr. Leister for his testimony.

                 STATEMENT OF MR. MIKE LEISTER,

                  MEMBER, BOARD OF DIRECTORS,

                 COORDINATING RESEARCH COUNCIL

    Mr. Leister. Good afternoon. Thank you for inviting me here 
today to testify on mid-level ethanol research programs 
conducted by the Coordination Research Council, CRC. I am a 
Senior Fuels Policy Advisor for Marathon Petroleum Corporation, 
but today I am here to represent CRC. I am currently a member 
of the CRC Board of Directors, and I am a past President of the 
Board.
    CRC is a research organization that has been around for 
more than 70 years. You may not have heard of it much before, 
but it has done significant research throughout the two World 
Wars and since then. About two-thirds of the CRC budget is paid 
for by automobile manufacturers and the American Petroleum 
Institute. The remaining funding is paid for on a project-by-
project basis by outside organizations. CRC is the gold 
standard of vehicle and fuels research.
    In recent years, the U.S. Environmental Protection Agency, 
the U.S. Department of Energy, the California Air Board, the 
National Renewable Energy Lab, and even the Renewable Fuels 
Association and Growth Energy have contributed significant 
funds to CRC research projects.
    I would like to stress at the outset that my testimony for 
CRC does not engage in any advocacy. CRC stays out of advocacy. 
We try to conduct straightforward research and report the facts 
that have been learned. CRC leaves it to other parties to apply 
political interpretation to these results. My written testimony 
has some additional background on CRC.
    Shortly after the enactment of the Energy Independence and 
Security Act of 2007, the auto, oil industries, and even DOE 
and EPA recognized that substantial research was needed to 
assess the compatibility of higher-level ethanol blends with 
existing vehicles and small engines. The Coordinating Research 
Council developed and funded a comprehensive, multi-year 
testing program. In the early stages of this program, DOE and 
NREL participated in the design of various projects and even 
helped write some of the preliminary reports. The CRC has spent 
close to $14 million looking at mid-level ethanol blends 
research over the past years, and we are committed to finishing 
the projects that we have underway.
    Attachment One of my testimony lists the CRC programs and 
their schedules. The chief programs in this area are, first of 
all, the durability of the engine itself, particularly engine 
valves and valve seats. That program has been completed. The 
durability of the vehicle onboard fuel storage and handling 
equipment. That project has also been completed. The 
computerized onboard diagnostic system, or OBD, which the 
driver often sees as the check engine light coming on and off, 
that project is still ongoing, and finally, the last major part 
of our research has been the vehicle evaporative emissions 
control system, which minimizes the release of fuel vapors to 
the atmosphere, and that project has been completed.
    This comprehensive set of test programs will be completed 
this spring with the OBD Program being completed. However, the 
test results on at least two of the programs, the engine 
durability and the fuel system durability, suggest that E15 has 
the potential to damage millions of vehicles in the current 
U.S. fleet.
    CRC, along with EPA and DOE, participated in all eight of 
the mid-level ethanol stakeholder meetings that have been held 
since May of 2008. On each occasion, we shared our research 
schedule and preliminary test results. However, EPA chose to 
ignore this research. Instead of waiting for CRC studies to be 
completed and thoroughly evaluated, EPA improperly used data 
from a DOE catalyst durability program and drew conclusions 
about E15 effects that the DOE Program was simply not designed 
to evaluate.
    My testimony today will highlight the results of the CRC 
E15 research on engine durability and fuel system durability.
    On engine durability, that research demonstrated that E15 
and E20 could cause engine damage, specifically excess valve 
and seat wear under certain driving conditions in some of the 
existing vehicles that were expected to be sensitive to ethanol 
concentrations. Two out of eight models tested in the program 
failed on E15 and E20 but not on E0. The failures that occurred 
were compression failures, and they can result in the loss of 
power, increased emissions, and high repair costs for the 
consumer.
    On fuel system durability, the research identified an 
elevated incidence of fuel pump failures, fuel system component 
swelling, impairment of the fuel level measurements in some of 
the vehicles tested. E15 can cause erratic and misleading fuel 
gauge readings and cause improper check engine light 
illuminations. Fuel pump failures will stop the flow of fuel to 
the engine, which can result in breakdowns on the highway or 
busy streets. A fuel system components problems did not develop 
when CRC tested E10 or E0 on these components.
    Discovering these problems was not really very surprising, 
because valve and valve seat upgrades are typically what an 
auto manufacturer does to make a vehicle E85 compatible. Fuel 
pumps and level sender problems are also not surprising, 
because these components also are typically upgraded to make 
flex fuel vehicles for E85.
    I would like to point out that CRC only tested a small 
sample of vehicles, engines, and components in the current U.S. 
vehicle fleet, and that most of the sampled vehicles, engines, 
and components demonstrated no problem with E15; however, the 
problems uncovered represent serious concerns over the useful 
life of millions of the vehicles in the current fleet. Until 
2012, no vehicles in the U.S. fleet, except for flex fuel 
vehicles, were really designed to handle E15, so it was not 
surprising these problems were found.
    CRC simply believes that the research demonstrates that 
millions of the vehicles, engines, or components in the U.S. 
fleet could be damaged by E15.
    Thank you.
    [The prepared statement of Mr. Leister follows:]



[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    Chairman Stewart. I would like to thank the three of you 
for your sacrificing your service and making yourselves 
available to us today for your questions and your expertise.
    Reminding the Members that Committee rules limit 
questioning to five minutes.
    The Chair at this point would open the round of 
questioning, and the Chair recognizes himself for five minutes.
    A concern that I think many of us have, and this is 
bipartisan, it is something that I think is unanimous 
throughout, you know, leadership in government and that is the 
risk of unfunded mandates from the Federal Government, where 
rules and regulations may be imposed without authorizing any 
funds to offset the actual cost of those rules or regulations.
    And I think this may be a potentially good example of that, 
and, again, it would be bipartisan if that were the case. If we 
were to start receiving calls from our constituents who had 
significant damage to what would for many of them be one of the 
largest investments they are making short of a home or some 
others, the automobile that they drive, and if they did receive 
damage from that because of these rules, my question to you is, 
who is liable if the consumer were to experience engine damage 
because of the use of E15 in engines?
    And I think you have answered the question, but if you feel 
like you would elaborate, what is the likelihood of that 
happening, and you know, what would you do to recommend that we 
avoid that situation?
    Maybe, Mr. Darbelnet, we could begin with you.
    Mr. Darbelnet. Certainly. Thank you for that question.
    Clearly, the liability that would result from that 
occurring should not rest with the consumer. At the same time, 
none of the other parties that seem to have an interest in 
making E15 available are willing to step forward and assume 
liability. In fact, there have been efforts on their part to 
avoid liability, which I think is an indication of their 
recognition that there is an issue here that needs to be dealt 
with.
    I think we should also observe that the damage that we are 
concerned about is probably going to occur over a period of 
time, and so we will not immediately discover the full 
magnitude of the problem, and by the time it is apparent, I 
suspect it is going to be difficult to trace back the problems 
of the fuel that may have led to the damage, because if you 
have been driving for a year or two and using this fuel and you 
have damage, was it when you bought it at service station A or 
when you bought it at service station B or service station C? 
So really what we need to do is to adequately test it before we 
make it available for sale. That is the solution.
    Chairman Stewart. Well, I just have to interject. I am just 
shocked that no one is stepping forward to claim responsibility 
for this potential liability, but of course, they wouldn't, and 
like you said, it is ambiguous and difficult to determine in 
some cases.
    Would either of the two of you like to address the same 
question?
    Mr. Allard. Mr. Chairman, I would just comment that we 
don't recommend to our members that they purchase a motorcycle 
that is not covered by a manufacturer's warranty, and when 
these are covered by warranty, in all clear conscience we can 
recommend that they buy that fuel or buy that engine or 
whatever.
    So those warranties are put out there to protect the 
consumer any liability that they may assume.
    Chairman Stewart. And I would just hope that the 
legislation considers the impacts of that and that we don't 
leave our constituents with a significant liability that they 
have no means of controlling.
    Mr. Leister, would you like to address that question as 
well?
    Mr. Leister. I think Mr. Darbelnet----
    Chairman Stewart. Let me ask just very quickly if we have 
time for this. Why is the testing of the Coordinated Research 
Council conducted better or more appropriate than the EPA 
relied on? Are there differences in the underlying studies.
    Yes.
    Mr. Darbelnet. You appear to be looking at me, but I might 
want to defer the question to someone else. However, I would 
offer that we haven't really challenged the EPA research on the 
basis of did they spend enough time looking at the effect of 
the fuel. Our concern with their research is the scope. It is 
my understanding that what they were looking at was the effect 
of E15 on emission control systems. They did not address the 
effect of E15 on the other components of the engine that were 
discussed by one of the previous testimonies.
    Mr. Leister. Basically, the EPA testing was an attempt to 
try to figure out whether E15 was a problem in vehicles. There 
was a vast lack of knowledge in this area. The fact that they 
chose to maybe not run as strenuous a test as necessary doesn't 
degrade from the fact that they did a test, but it really 
wasn't designed to test the whole vehicle, as Mr. Darbelnet 
just discussed.
    The CRC Program was actually designed by auto 
manufacturers, and the tests were what auto manufacturers would 
use to test their own equipment before they would sell it to 
the public, and as that, it had a higher standard than EPA 
developed for their tests.
    Chairman Stewart. All right. Thank you.
    I now recognize Ms. Bonamici for five minutes for her 
questioning.
    Ms. Bonamici. Thank you very much, Mr. Chairman, and thank 
you to the witnesses. Before I begin my questioning I just 
wanted to say a word about the witnesses and the hearing 
record. Because the Department of Energy conducted the research 
on which the EPA based its decision to grant the E15 waivers, 
it is important to note for the record that the majority 
invited neither the Department of Energy nor the EPA to discuss 
the science and extensive testing on which the EPA based its 
decision.
    In addition, since the Department of Energy released a 
critique of the study performed by the Coordinating Research 
Council, the group that Mr. Leister is here representing, this 
conversation would have benefited from a Department of Energy 
presence on the panel.
    Unfortunately, the Democratic Subcommittee staff got word 
of Mr. Leister's appearance at this hearing at such a late hour 
that inviting the Department wasn't an option for us.
    So, accordingly, I am planning to submit various materials 
for the record that help to represent an alternative viewpoint 
in this debate. Although they don't necessarily represent the 
views of all of the Democrats on this Committee, it should help 
bring some balance to the record.
    I wanted to ask, just to establish for the record, and I 
think Mr. Darbelnet, perhaps you would have the answer to this, 
do you know how many gas stations there are in the United 
States?
    Mr. Darbelnet. I don't know the exact number, but there 
are----
    Ms. Bonamici. Approximately.
    Mr. Darbelnet [continuing]. Thousands and thousands and 
thousands. Probably, let us say, 100,000 or more.
    Ms. Bonamici. About 100,000.
    Mr. Leister. One hundred and sixty-nine thousand.
    Ms. Bonamici. Thank you, Mr. Leister. Do you know how many 
of them are selling E15?
    Mr. Darbelnet. My understanding is that there might be 
somewhere between 10 and 20, the number I heard most recently 
was 18, that are currently selling it, which is precisely why 
we think this ought to be addressed now. It is going to be easy 
to stop when it is only 18. It will be difficult to stop when 
it is 100,000.
    Ms. Bonamici. Thank you. I just think it is important to 
establish for the record that we are talking about somewhere 
around a dozen and a half out of hundreds of thousands. So just 
for the record.
    And, Mr. Darbelnet, I know the AAA, of which I am a proud 
member, is an organization focused on benefits of membership, 
peace of mind on the road, money saver, and that is, I think, 
something that we all appreciate. I am sure that you hear 
frequently from your members, as I do from my constituents, 
about the high price of gasoline, and I know that studies have 
shown that drivers can save up to 83 cents per gallon because 
of increased ethanol production.
    So I just wonder about motorists who drive cars that even 
manufacturers say can use E15. Should they be allowed the 
option of buying E15 and setting aside the uniqueness of places 
like Oregon and New Jersey where we are not allowed to pump our 
own gas? It is very quaint, but that puts it in a different----
    Mr. Darbelnet. Well, thank you for that question and for 
your support of AAA as a member. With regard to the potential 
savings per gallon, the numbers that I have seen are far less 
than 83 cents per gallon. There may be some unique 
circumstances that you are aware of that would cause the 
differential to be of that magnitude, but the indications we 
have are that if it is not price parity, the savings is quite 
modest, and if one factors in the lesser miles per gallon 
traveled with E15 than with E10 or pure gasoline, the savings 
is then reduced because you are not getting as many miles per 
gallon for the gallon that you bought.
    However, clearly we are in favor of options for consumers. 
Our concern currently is not that E15 should never be brought 
to market. Our concern is that the consumers do not know 
whether they should put E15 in their vehicle or not, and there 
is a huge difference of opinion between the EPA that says you 
can use it in any vehicle manufactured after 2001, and the 
people who actually make the cars who say that it shouldn't be 
used in virtually 95 percent of the vehicles that are on the 
roads today.
    And it seems to me that with your assistance, we owe it to 
the traveling public to reconcile viewpoints from the auto 
manufacturers and the EPA so the consumer is not caught in the 
middle not knowing who to believe.
    Ms. Bonamici. Thank you, and I truly believe also in 
consumer education.
    I want to ask Mr. Leister, while we have time, when the 
Coordinating Research Council put out the study on the 
automobile impact of E15, the Department of Energy did point 
out some problems that they found with the research. I know 
that Department of Energy's Vehicle Technology's Program 
presented an analysis that concluded that the methodologies 
were significantly flawed in their words.
    It is my understanding, for example, that no engines were 
tested with E10, which represents more than 90 percent of the 
gas in the United States, and at least one of the tested 
automobiles is already the subject of a recall involving valve 
problems.
    So can you describe to us how this CRC study compared in 
terms of scope with the Department of Energy testing? For 
example, the number of vehicles, the number of miles driven, 
and did the Energy Department's critique cause you to revisit 
your methodology?
    Mr. Leister. Certainly the Energy Department's critique 
caused us to relook at our program, and API has issued a letter 
that you can reference. I believe it was sent to the Committee 
here, outlining various rebuttals there. CRC will just stick to 
the facts here. DOE decided to do basically a catalyst 
emissions test. They ran the vehicles to get the catalyst hot 
enough to get an equivalent life over the life of the vehicle. 
That is not a very strenuous test, and it is not even the way 
the average public drives their cars.
    CRC, because there is no standard test for engine 
durability, took the advice of the various auto manufacturers 
that are members of CRC and developed a composite test based on 
their experience, and those tests did show some compression 
leakage, but more important than that, the compression leakage 
that we determined wasn't the final result. The compression 
leakage was a signal for us to send the vehicles back to the 
manufacturers. So each manufacturer got their own vehicle back, 
tore it apart, and looked at it, and it was only two out of the 
eight that actually had a problem with the valve seats.
    As far as the vehicles being under a recall, I am not aware 
that any of the vehicles we tested were under a recall for a 
valve problem.
    Ms. Bonamici. Thank you, and my time has expired.
    Thank you, Mr. Chairman.
    Chairman Stewart. I thank the Ranking Minority Member, Ms. 
Bonamici.
    The Chair would like to note for the record that the 
minority had the opportunity to invite any witnesses of their 
choosing but chose not to at this time, and that I think would 
help explain some of the choices or the appearances of the 
witnesses with us today.
    The Chair now recognizes Mr. Sensenbrenner for his 
questions.
    Mr. Sensenbrenner. Yes. Thank you very much, and Mr. 
Chairman, I am glad that you pointed out that the Democrats did 
have a chance to invite a witness, and they failed to do so. So 
the complaint that we heard from the Ranking Member, I think, 
rings very hollow.
    The other thing that really irritates me is casting 
aspersions on research that is done because it is financed by 
somebody who may have a party, an interest. The thing is, is 
that I think that anybody who sells a product wants to make 
sure that their product is the absolute best that it can be, 
and maybe part of the motivation of that is to avoid liability 
problems, but I think part of the motivation is to keep 
America's edge in terms of developing new products, whether it 
happens to be fuel, whether it happens to be motor vehicle. And 
who is supposed to do that if those that manufacture or sell 
the products don't do it? I don't think the government can come 
up with something that is objective, and here what we have 
heard from all three of these witnesses is that the only thing 
the EPA test did was the impact of E15 on emission systems, not 
on the engine itself, not on the components parts of the 
engine.
    As a result, the thing that the opponents of this waiver 
have been harping on is that the study was really not complete. 
You know, it was kind of, you know, trying to diagnose a skin 
cancer by doing a CAT scan or an MRI.
    Now, you know, having said that, the draft bill that I 
have, which I hope my minority party colleagues will cosponsor, 
will have a truly objective analysis being done by the National 
Association of Sciences, so that nobody can say that the study 
was done by somebody with a financial interest or was biased 
because they wanted to advance a regulatory agenda.
    Now, I have a couple of questions of Mr. Leister.
    Why did the CRC move forward with its studies if E15 was 
already approved for use?
    Mr. Leister. Well, actually, we started our studies long 
before the waiver request was even made. We started our studies 
in 2008. That is why we actually tested E20 and E15. At the 
time we started, we were not aware that E15 was going to be the 
fuel of choice of EPA.
    Mr. Sensenbrenner. Was the EPA's response to your studies 
objective, and were their results fairly analyzed from an 
unbiased, scientific viewpoint, or was basically the EPA saying 
that everybody should ignore what you have done?
    Mr. Leister. You make it difficult because EPA actually 
pays for some of our projects, and we would hate to lose their 
funding.
    Mr. Sensenbrenner. Well, we won't talk about conflicts of 
interest here.
    Mr. Leister. You know, EPA did their analysis, and it 
appeared that they were under a tremendous amount of pressure 
to come up with some answers, and as a result, the more we 
informed them that there was more research to be done and more 
timely, the less interested they were in hearing about that. I 
might point out that the research that was done, you correctly 
pointed out that our members do this to find out what is 
happening, you know, what our problems are. Two of the members 
of CRC, the auto members, have used that research to actually 
now make E15-compatible vehicles. One makes--has made vehicles 
in 2012 and 2013 that are E15 compatible, and one has started 
in 2013 to make vehicles that are E15 compatible.
    I think that one says volumes for the fact they say the one 
is--any other vehicles they made prior to that they won't 
warranty with E15, and yet they are making ones that will, and 
secondly, that they have seen what the problems were based on 
the research, and they have fixed those problems.
    Mr. Sensenbrenner. I would like to squeeze in one more 
question of Senator Allard. There are safety concerns, as well 
as the other concerns, that have been expressed by the 
witnesses at the hearing. For example, the Coast Guard told the 
EPA that a waiver raised concerns relating to possible 
reduction in level of safety for recreational boaters. So we 
have got the recreational boaters.
    And at least in my part of the country and maybe yours, 
too, Senator Allard, we got snow blowers because everybody 
would be marooned if the snow blowers didn't work, and then 
during the summer we have lawnmowers. All of these small 
engines have the same problems with E15, and many of them are 
two-cycle engines where the increased ethanol would end up 
reducing the lubricating capacity of the oil that has to be 
mixed in with the engines.
    What do you have to say about that, and you know, can you 
broaden the complaint with the other small engines that I have 
mentioned?
    Mr. Allard. Well, I am not an engineer and probably can't 
answer that very directly, but I can say that there is concern 
among motorcyclists about the heat that is generated and the 
safety of the engine when they are riding their motorcycle.
    Mr. Sensenbrenner. Okay. I will rest my case on the Coast 
Guard then. Thank you.
    Chairman Stewart. Thank you, Mr. Sensenbrenner.
    Seeing not another individual to my right, we will now 
yield down to Mr. Weber.
    Mr. Weber. I really don't have a lot of questions, Chris. I 
appreciate that. I will note for the record that, unlike New 
Jersey, in Texas we can pump our own gas. I figured that in 
Texas we understand that consumers and businesses get it right 
a lot more often than the Congress. I applaud you all for 
testifying.
    Thank you.
    Chairman Stewart. All right. Well, thank you then.
    And Mr. Rohrabacher.
    Mr. Rohrabacher. Thank you very much, and I appreciate your 
leadership and coming right out of the gate this way.
    Chairman Stewart. Thank you, sir.
    Mr. Rohrabacher. Straight at an important issue. This is an 
important issue, and I will tell you something. Out in 
California, nobody can tell me that I am getting, that I not 
getting less gas mileage because of that ethanol, and quite 
frankly, people think we Congressmen are rich. Well, I am not 
rich, and it affects me, and what about those people who don't 
make as much as those of us in Congress? Increase the cost of 
filling up your tank, that just means you don't have as much 
money to pay rent or feed your kids or take your family out for 
a dinner.
    So ethanol was first in place, and you are the experts 
here, wasn't it first put in place, this mandate for ethanol, 
to get rid of the lead in gasoline? Is that right? No. Why did 
we have the mandate to begin with?
    Mr. Leister. The original ethanol mandate, I believe, 
started from a program EPA had to reduce carbon monoxide in 
certain cities that were in non-attainment of the carbon 
monoxide standard. I believe it was back in '91, '92, 
timeframe. There were a handful of cities that had carbon 
monoxide problems. There had been some splash blending of 
ethanol for economic purposes prior to that, but the actual 
regulation of ethanol was first put into place----
    Mr. Rohrabacher. For carbon monoxide gas, and did that 
lower the level of carbon monoxide?
    Mr. Leister. Yes. At the time, the engine technology at the 
time with carburated vehicles and that getting extra oxygen 
from the ethanol actually did help reduce carbon monoxide. 
Since that time, the new engines now automatically adjust. They 
sense the oxygen coming out of the exhaust and adjust the 
intake air, so you would no longer get that benefit from 
vehicles today, but it was a benefit back in the early----
    Mr. Rohrabacher. So in other words, we put this requirement 
in to lower the carbon monoxide, but because technology, engine 
technology has advanced, that that would be no longer necessary 
today? Is that what you are saying?
    Mr. Leister. That is true, but even more important than 
that, I guess, is that all the areas that were in carbon 
monoxide non-attainment, except for maybe one, I believe, have 
all come into attainment. They all came into attainment real 
fast, even as engine technology was----
    Mr. Rohrabacher. Is that true with motorcycles, too, 
Senator?
    Mr. Allard. Well, if you will recall, about the time I was 
in the House serving with you, the issue was oxygenated fuels.
    Mr. Rohrabacher. That is right.
    Mr. Allard. And we had the MTBE versus ethanol, and that 
was a big debate, and it was to reduce the air pollution.
    Mr. Rohrabacher. And was the air pollution level and would 
it be better today or worse today if we didn't have ethanol in 
the gas? From what I just heard, there it sounded like you were 
saying even without ethanol the gas, the air pollution level 
would not be any worse today.
    Mr. Leister. Well, you got to understand there are a lot of 
things we try to control in the air, not just carbon monoxide. 
The other major one is ozone. Okay?
    Mr. Rohrabacher. Right.
    Mr. Leister. And ozone comes about because of knocks 
NO<INF>2</INF> emissions and volatile organic compounds or VOC 
emissions. In 1995, reformulated gasoline was legislated and 
regulated by EPA. That fuel is both lower in VOCs and lower in 
NO<INF>2</INF>, and so it is used in areas that have a problem 
with attaining the ozone standard, and it has helped, but in 
the interim all the other gasoline in the country because of 
various other EPA regulations has become a lot more, a lot 
cleaner.
    Mr. Rohrabacher. Is there anything else, is there another 
impact, for example, particulates?
    Mr. Leister. There is a particulate problem also.
    Mr. Rohrabacher. Doesn't the ethanol contribute to that 
rather than helping bring that down?
    Mr. Leister. It is difficult to say. I say there are some 
studies that show that particulates are reduced with oxygen, 
the extra oxygen that is present. Under newer vehicles, that 
effect isn't quite as large, and so there are some studies that 
show that particulates have actually gone up as a result of 
that, I believe.
    Mr. Rohrabacher. Right. Okay. Well, I think----
    Mr. Leister. But----
    Mr. Rohrabacher [continuing]. There are some studies like--
--
    Mr. Leister [continuing]. It is really slight. Okay.
    Mr. Rohrabacher. But let me just note this, that if you are 
bringing down the miles per gallon that you are getting in your 
car, which ethanol does, I mean, I will testify to that, so 
that means you have to use more gas. You have to use more gas, 
that means to get to the same place, that means you have to 
have more, you are putting more stuff into the air.
    Mr. Leister. You are, but----
    Mr. Rohrabacher. But if you have to use more of it, that 
means you got the same amount of stuff going up.
    Mr. Leister. But the tier two standards that EPA put in 
place in 2007 basically required engines and fuels to be 90 
percent--have 90 percent less emissions than they had before. 
That overwhelms most of these other effects that you are 
talking about.
    Mr. Rohrabacher. Ninety percent based on miles per gallon, 
perhaps.
    Mr. Leister. No. It is actually----
    Mr. Rohrabacher. No?
    Mr. Leister. It is on a per-mile basis. So it builds in the 
miles per gallon factor.
    Mr. Rohrabacher. All right. Well, thank you very much. Just 
let me note that in California, we--at least those of us who 
are filling up our tanks with gas, and we drive a lot out 
there--we definitely believe that ethanol is costing us and 
costing American families a lot of money, and I am not so sure 
that it is worth exactly what we are paying for. Senator 
Allard, one last thing. Did you say this is going to hurt the 
engines for motorcycles?
    Mr. Allard. Congressman, that is a concern that we have 
because the manufacturer won't issue a warranty when you use 
E15 in the engine, so we think there is a reason for that, and 
we wouldn't recommend it to our consumers.
    Mr. Rohrabacher. Yes. We are afraid of that, too, and that 
also is a factor in determining what the pollution level is. If 
you are going to destroy an engine, that means, in the end, 
there is a lot more stuff going into the air when you add in 
all of that.
    Thank you very much, Mr. Chairman.
    Chairman Stewart. Yes, sir. Thank you, Mr. Rohrabacher. We 
now recognize the full Committee Chairman, Mr. Smith.
    Chairman Smith. Thank you, Mr. Chairman, and Mr. Chairman, 
let me say I regret missing the witnesses' testimony today but 
appreciate all of them being here, and Senator Allard, nice to 
see you again, and welcome back.
    What I am trying to do is, in my own mind, and I think this 
will be helpful to all of us and helpful to others as well, is 
sort of compiling a list of advantages and disadvantages of 
E15. And what I would like to do is give you my list on both 
sides and ask you all to comment to see if you agree or 
disagree or if you can add anything to either side of the 
ledger.
    On the disadvantages, we have unknown impact of E15 on 
various types of engines. We have had a study about emissions. 
We haven't had any real study on the impact of the engines 
themselves. Second, you get about 30 percent less gas mileage 
if you use E15. That might be a disadvantage. Environment, you 
can probably argue that either way, but the amount of energy, 
probably fossil fuel energy that goes into growing the corn 
necessary for ethanol is obviously not a positive impact on the 
environment. And then fourth, I would put, well, maybe those 
are my three. I was going to say, talk about more of the harm 
to engines, but I think my first point covers them.
    On the other side, as far as advantages go, price of 
gasoline is going to be less costly. I would put that as a 
positive, and then, again, on the environment you can probably 
argue either way. There is less CO<INF>2</INF> going into the 
environment, but I have already mentioned the other side of 
that.
    What do you all think of that list of advantages and 
disadvantages and Mr. Darbelnet, I guess we will start with 
you.
    Mr. Darbelnet. Thank you. Well, with regard to impact on 
the engine, clearly that is one of our concerns, and I think 
you are correct to have that on your list of negatives.
    With regard to getting less miles per gallon, I would 
agree. It will yield less miles per gallon, but I think the 
differential is much smaller than 30 percent. Pure gas would be 
the benchmark. E10 would probably get you slightly less than 
four percent worse gas mileage.
    Chairman Smith. The figure I heard was actually 33 percent 
less. You think that is too much? Okay.
    Mr. Darbelnet. From everything I have seen, it is between 
four and six percent less, depending on whether you are using 
E10 or E15.
    Chairman Smith. Okay.
    Mr. Darbelnet. And as to the impact on corn, I am well over 
the tip of my skis on that topic, but with regard to the 
positives, less costly, yes, slightly, but one has to bear in 
mind that you are getting less miles per gallon, and with 
regard to the environmental impact, from our conversations with 
our engineers, they think that overall it is pretty close to 
being a wash.
    So really, the only outstanding issue for us at this point 
is the matter of impact on engines, and I think we should note 
in the pluses the reduced dependency on fossil fuel that 
results from using ethanol as an additive.
    Chairman Smith. Okay. Environment you would call a wash and 
less mileage, less cost, and unknown impact on engines on 
negative impact?
    Mr. Darbelnet. Negative impact.
    Chairman Smith. Negative impact. So overall negative, I 
guess.
    Senator Allard, and by the way, I am just curious, if the 
mileage is down six percent, is the cost going to be down six 
percent or not?
    Mr. Darbelnet. Well, that is part of the conversation. The 
cost is less. Is it six percent. Sometimes it is six percent, 
sometimes it is a little more, sometimes a little bit less.
    Chairman Smith. We are coming up with another wash there.
    Mr. Darbelnet. We are coming very close to a wash. I think 
the big issue is the impact on the engine.
    Chairman Smith. Great. Senator Allard.
    Mr. Allard. Congressman, I think the big concern that we 
would have is confusion at the gas tank, you know, with the 
rules and regulations that are at the gas tank that are being 
imposed upon the retailer. You know, I think that is a concern 
that we have, and then because of that confusion, you put the 
wrong kind of fuel in your engine, which the warranty will 
stand up with.
    Also, motorcyclists are concerned about the fact that if 
E15 is used in a rural gas station, for example, and you are 
out in a rural area, and you run out of gas, you don't have 
much choice, and so it takes away consumer choice in some 
instances.
    Chairman Smith. Okay. Thank you, and Mr. Leister.
    Mr. Leister. Again, I am talking for CRC, so I am going to 
just try to stick with scientific facts rather than opinions 
and political facts. Definitely we are concerned about the 
impacts on the vehicles, the engines, and the components with 
E15. We think millions of vehicles will be affected, so it is a 
bad choice for the public.
    As far as fuel economy, ethanol is 30 percent less energy 
than gasoline. When it is blended at a 10 percent rate, the E10 
mixture has a three percent less fuel economy. E15 would have 4 
1/2 percent using just straight multiplication there.
    And as far as energy and corn, there are a lot of studies. 
California found that, you know, corn wasn't necessarily so 
good for the environment, but then they changed their mind. EPA 
found that corn was. A lot of this has to do with the way you 
account for the energy that goes into the distiller's dried 
grain.
    However, if you are strictly looking at fossil energy going 
to something to give you energy to move a transportation 
vehicle, there is more energy of fossil fuel that goes into 
making ethanol than you get energy out of the ethanol. But when 
you add the distiller's dried grain in, the net result overall 
is positive. So if you have a program where you are trying to 
produce feed for animals, you might want to think about it.
    Chairman Smith. Okay. Did you comment on engines? Did you 
say it would be a negative?
    Mr. Leister. Yes. Yes.
    Chairman Smith. Okay. So there is general agreement among 
all the witnesses on a negative impact or a potential negative 
impact on engines then. Okay. Thank you.
    Thank you, Mr. Chairman.
    Chairman Stewart. Thank you, Chairman Smith.
    The Ranking Minority Member has requested a follow-up 
question. We now recognize Ms. Bonamici.
    Ms. Bonamici. Thank you very much, Mr. Chairman. I am 
holding up the whole side of the dais today.
    I wanted to talk a little bit about the misfueling that I 
know several of you have mentioned. Misfueling would be a real 
concern, but it is not an unprecedented issue. Similar problems 
were anticipated when unleaded fuel was introduced, and more 
recently there were concerns about the ultralow sulfur diesel 
that would result in widespread misfueling as well as 
infrastructure challenges. For a couple of years, there were 
two types of diesel in in the fuel supply: low sulfur diesel 
and the ultralow sulfur.
    Did the AMA or the AAA notice any significant refueling, 
misfueling issues, and was the fuel industry generally able to 
meet the challenge, and maybe you could talk a little bit about 
some of the consumer information that went into informing 
gasoline consumers about those issues. Senator Allard and Mr. 
Darbelnet, perhaps. I don't know if, Mr. Leister, you want to 
opine on that as well. Thank you.
    Mr. Allard. Well, those--if I might respond, on the 
misfueling issues, I guess you would say the four gallon, when 
they required the four-gallon minimum, that was--that is a 
problem for us because many times the tanks only hold three to 
three and a half gallons. So the question came up then, what do 
you do with the remaining fuels, and are you going to be 
charged for the four full gallons if you don't use it? So that 
is where confusion at the pump existed when we had that 
mandate. Now----
    Ms. Bonamici. But that only for the----
    Mr. Allard [continuing]. The EPA has tried to correct that, 
and they have now, as we understand it, you know, you do have a 
choice on blender pumps as well as you have a dedicated pump 
just for 10 to 0 on your ethanol levels. And then if you--or 
you can just have single hoses, and you don't have an issue, 
and you don't have the minimum.
    And so it gets--it is very confusing, you know, by the time 
you consider all the rules and regulations, and it is confusing 
to our consumers, and it is hard to make wise choices as a 
consumer when it gets confusing.
    Ms. Bonamici. Thank you, Senator, and I am interested, too, 
in hearing about some of the efforts that have been made in the 
past about different fueling options and informing consumers. 
How has the industry gone about informing consumers when there 
were other concerns about misfueling?
    Mr. Darbelnet. Well, that is an excellent question, and it 
reminds me of the transition that we encountered when we went 
to unleaded fuel, which you referred to. As you may recall, at 
that time they changed the size of the hole through which the 
gas is put into the vehicle, and we changed the size of the 
filler spout on the pumps, such that you could not fit the 
nozzle from an unleaded pump into the tank of a vehicle that 
wasn't designed to receive it. So unless you were going to use 
a funnel to fill your car, there was virtually no risk of 
putting unleaded fuel in a vehicle that should have leaded 
fuel.
    There is no discussion currently of anything of that nature 
being done to prevent misfueling as it relates to E15, and 
frankly, I think there is a limit to how many different sizes 
we can come up with to address the problem.
    So I think the misfueling risk is more significant in this 
case than it has been in the past, simply because we don't have 
some of the options available that we did previously.
    Ms. Bonamici. And yet, Mr. Leister, and if you could just 
clarify, I recall that you testified that there are 
manufacturers now who are manufacturing cars that are made for 
E15. Is that correct?
    Mr. Leister. Yes. I will answer that first, and then I 
would like to get back to the previous question, but, yes, 
there are two manufacturers that I am aware of that have 
announced, one that it is 2012, and 2013, cars are E15 
compatible, and I believe their owner's manuals now state that, 
and one that has done the same thing for their 2013, vehicles.
    Ms. Bonamici. Okay. So there have been adaptations, and 
then----
    Mr. Leister. There have been adaptations.
    Ms. Bonamici [continuing]. Your response to the prior----
    Mr. Leister. I guess I would like to point out that for 
unleaded gasoline there wasn't--there was a nozzle change, but 
also from our point of view there was, we believe, significant 
cheating as people could buy, for five or 10 cents, a little 
plastic adapter called an emergency fuel system, where you 
would plug it on the end of the nozzle, and it would make it 
smaller to fit into the old hole.
    So if you give people sufficient incentive, they will try 
to go for the lower fuel, whether it is good for their car or 
not.
    Ms. Bonamici. Interesting commentary. Well, thank you very 
much. I yield back my time. Thank you.
    Chairman Stewart. Okay. Thank you, Ms. Bonamici.
    Knowing that we are needed on the House Floor for a vote in 
just a few moments, the Chair would like to recognize Mr. 
Neugebauer.
    Mr. Neugebauer. Yes. Well, thank you, Mr. Chairman, and 
thank you for holding this hearing. This is a very important 
issue.
    This will be a quick question because we need to go vote, 
but, you know, some of the proponents of E15 and ethanol bring 
up the point that in other countries they burn 50, 60 percent, 
and some vehicles are burning almost complete 100 percent 
ethanol. So what is the distinction here of the U.S. moving to 
the ethanol blending versus what people will point to other 
countries using? What is the difference?
    Mr. Leister. Most of the time people reference Brazil when 
they are talking about that, and the fact is, I think, most of 
my auto manufacturer colleagues would tell you that the 
vehicles that they sell in Brazil toady are essentially FFEs. 
So they are designed to take higher levels. They are not U.S. 
vehicles that shipped down there.
    I would like to point out the early days of the program in 
Brazil, the ethanol ate the cars apart, and so they had to 
replace them with FFEs.
    Mr. Neugebauer. Either one of you want to comment on that?
    Mr. Darbelnet. I would simply concur with what was offered 
in terms of a commentary.
    Mr. Neugebauer. So I think the conclusion I am drawing from 
listening to the testimony today is that there is a movement to 
provide in the automobile industry an adaptation to that, but 
what you are saying, it is not mature enough at this particular 
point in time, and that if we force that process, then we could 
be actually damaging the consumers that own vehicles.
    Mr. Darbelnet. That is correct, sir. If one thinks about 
how many new vehicles enter the fleet each year and the average 
age of the fleet, it is going to take probably a decade to get 
to a point where a substantial majority of vehicles would be 
suitable for E15, unless there is some other discovery or 
retrofit that becomes available or some further ingredient that 
can negate the effect, but at the present time, there are 
roughly just five percent of the vehicles on the road that 
could safely burn E15.
    Mr. Neugebauer. So nobody has come up with an additive or 
something like that that helps.
    So, Senator Allard, good to see you again. So what should 
be the appropriate policy on this issue? You are an old 
policymaker. What would you recommend to this Committee?
    Mr. Allard. Well, I would withhold putting E15 on the 
market until the research has been conducted that would assure 
that motorcyclists, in this particular instance since I 
represent the AMA, can use it without damage to the engine. To 
me, that is the proper policies to have the right research, and 
it hasn't been done at this point, at least for the type of 
vehicle that I am representing at this table.
    Mr. Neugebauer. And we are really not, I mean, you bring up 
motorcycles, and we have been talking about automobiles, but 
really we are actually talking about a lot of other products 
that----
    Mr. Allard. Yes.
    Mr. Neugebauer [continuing]. Use fuels that we need.
    Mr. Allard. Well, I think you can generalize and say small 
engines in general.
    Mr. Neugebauer. Right.
    Mr. Allard. Uh-huh.
    Mr. Neugebauer. I yield back, Mr. Chairman.
    Chairman Stewart. Thank you, Mr. Neugebauer.
    With that, we come to the conclusion of this hearing. I 
would like to thank the witnesses for your valuable testimony 
as well as the Members for their questions.
    The Members of the Committee may have additional questions. 
If that is the case, then we would ask you to respond to those 
in writing. The record will remain open for two weeks for 
additional comments and written questions from the Members.
    The witnesses are excused with, again, with our thanks, and 
this hearing is now adjourned.
    [Whereupon, at 3:14 p.m., the Subcommittee was adjourned.]






[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



                              <all>


</pre></body></html>
